No. 19-220

3Jn tbe ~upreme QCourt of tbe mntteb ~tatest
LEE CHATFIELD, ET AL., APPLICANTS

V.
LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.

PROOF OF SERVICE
The undersigned certifies that on September 19, 2019, she served the MICHIGAN SECRETARY OF STATE'S STATEMENT IN RESPONSE TO INTERVENORS'
JURISDICTIONAL STATEMENT by mailing same in an envelope bearing postage
fully prepaid, plainly addressed as follows and emailing same to the email address
provided:
Attorneys for Appellants
Williams & Connolly LLP
725 12th st reet, NW
Lisa Schiavo Blatt
Counsel of Record Washington, DC 20005

202-434-5050

lblatt@wc.com
Party name: Lee Chatfield, et al.
Attorneys for Appellees
Faegre Baker Daniels LLP
300 N. Meridian Street, Suite 2500
Harmony Ann Mappesindiana olis IN 46204
(317) 237-8246
Counsel of Record
p
'
harmony.mappes@faegrebd.com
Party name: League of Women Voters of Michigan, et al.

...

